                                       UNCLASSIFIED



           MEMORANDUM REPORT NUMBER IT-A-02-03
       Challenges to Successful OpenNet Plus Implementation

                                          March 2002



The OpenNet Plus program is intended to provide every employee of the Depart-
ment of State (the Department) with desktop access to the Internet’s World Wide
Web. The Internet has become an indispensable source of information and a univer-
sal method for rapid communications among organizations engaged in government
and business transactions worldwide. Department employees have also become
increasingly dependent on the Internet to help them carry out their foreign affairs
activities in a reliable, fast, and cost-effective manner.

    In accordance with our goal of helping to ensure more effectiveness, efficiency,
and security in the Department’s information technology (IT) operations and infra-
structure, OIG conducted a review of the OpenNet Plus program. This report
focuses on the Department’s approach to implementing OpenNet Plus domestically
and at overseas embassies and consulates. Specific objectives of our review were to
(1) determine whether the Department is adequately planning and managing deploy-
ment of OpenNet Plus, (2) determine whether the Department has taken adequate
steps to ensure security of the OpenNet Plus infrastructure, and (3) identify plans
and procedures for monitoring and ensuring proper use of the Internet in accor-
dance with established policy guidelines. The purpose, scope, and methodology for
our review are discussed in Appendix A.



RESULTS IN BRIEF
Desktop access to the Internet will be invaluable in supporting Department employ-
ees with the information and communications needed to carry out their foreign
affairs responsibilities on a day-to-day basis. The Department is taking a structured
approach to implementing OpenNet Plus, its program for providing this long-
awaited capability. The approach includes a deliberate process for ensuring that
bureaus and overseas missions meet established technical, physical, security, and
management requirements for Internet access before they are granted connectivity
through OpenNet Plus.



OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002   1 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



          However, the Department has not instituted all of the policies needed to support
      OpenNet Plus implementation—particularly with regard to eliminating redundant
      Internet connections once OpenNet Plus is deployed and monitoring employee use
      of the Internet. By instituting the necessary policies, the Department will be able to
      avoid duplicative costs arising from maintaining separate Internet networks. Estab-
      lishment of a specific Internet monitoring policy and approach will also minimize
      the potential for inappropriate use of the Internet in the workplace, and correspond-
      ing wasted time and taxpayer dollars.



      BACKGROUND
      The OpenNet Plus project is intended to address the Secretary’s commitment to
      providing, as soon as possible, all Department employees with desktop access to the
      Internet’s World Wide Web to help carry out the foreign affairs mission. Access to
      the Internet is being accomplished via the Department’s existing global Open Net-
      work (OpenNet) infrastructure. OpenNet serves as the foundation for sensitive but
      unclassified information processing and communications among headquarters
      organizations and over 260 locations worldwide and is used by most employees for
      typical day-to-day operations and for e-mail. This network is mirrored on the classi-
      fied side of the Department by a second network that supports secure office auto-
      mation, e-mail, and limited web-based communications up to the secret level.

          The OpenNet Plus program was preceded by a history of repeated efforts to
      provide Internet access at the desktop. During the early 1990s, given the prolifera-
      tion of personal computers and the increasing number of people turning to the
      Internet for communications and research, the requirement for greater Internet
      access in the Department became apparent. Questions were raised concerning how
      to provide Internet access at the desktop for Department users in a secure manner.
      Consequently, during the summer of 1996, the Bureau of Diplomatic Security (DS)
      performed a risk assessment to determine whether the OpenNet infrastructure was
      secure enough to support Internet service. DS completed its assessment, identifying
      a number of vulnerabilities related to OpenNet access control, configuration man-
      agement, and security oversight. At that point, the Department decided not to move
      forward with plans for providing Internet access at the desktop, but to retain Internet
      e-mail service only within the existing OpenNet infrastructure.

          Given the vulnerabilities that DS identified with OpenNet, in 1996-97 the
      Bureau of Information Resource Management (IRM) conducted a pilot test to
      determine the feasibility of implementing another infrastructure for providing much-


2 .            OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002

                                   UNCLASSIFIED
                                       UNCLASSIFIED



needed Internet service. As a result of the pilot, IRM instituted a third network, the
Rich Internet Access Network, which provided Internet access on a fee-for-service
basis for domestic organizations that requested it. Rich Internet Access costs ap-
proximately $5,400 per person to cover requirements for additional desktop comput-
ers, as well as network support and administrative overhead. At the same time that
Rich Internet Access was deployed, bureaus, offices, embassies, and consulates were
implementing their own independent Internet access solutions. These included
dedicated Internet local area networks and stand-alone Internet terminals.

    With the integration of the United States Information Agency into the Depart-
ment on October 1, 1999, a fourth network was introduced, which also provided
Internet access. This network, Public Diplomacy Network, is used for unclassified
information processing and communications by employees within the Office of the
Under Secretary for Public Diplomacy and Public Affairs. With this addition, senior
managers became concerned about the enormous cost of maintaining an IT infra-
structure that includes four separate networks. In 1999, the Department established
a team to research and consider alternative strategies for eliminating some of the
redundancies and providing cost-effective Internet solutions. The following year, the
Under Secretary for Management approved a 90-day pilot program for the OpenNet
Plus project, which permitted IRM employees to access the Internet at their desk-
tops.

    Although initially limited in its Internet access capabilities, OpenNet Plus is
intended to provide a range of services previously unavailable to all Department
employees. For example, the program will provide desktop access to thousands of
public and private web sites, such as firstgov.gov and washingtonpost.com.
OpenNet Plus will also support electronic transactions, such as purchasing computer
equipment from online suppliers or buying books via amazon.com. Further,
OpenNet Plus will enable collaboration among foreign affairs agencies as part of the
Department’s Foreign Affairs Systems Integration initiative, as well as provide a
strong foundation for modern “e-government” operations in accordance with
requirements of the Government Paperwork Elimination Act. Additional Internet
services will be added to OpenNet Plus as the program evolves and as new require-
ments, technologies, and effective security techniques are developed.




OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002   3 .

                                       UNCLASSIFIED
                                       UNCLASSIFIED



      REVIEW FINDINGS

      STRUCTURED APPROACH TO OPENNET PLUS
      IMPLEMENTATION
      The Department is taking a structured approach to implementing OpenNet Plus.
      This approach began with a pilot program, conducted from January through April
      2001 with the participation of approximately 400 IRM employees. During the pilot
      program, a contractor performed a vulnerability assessment of the Department’s
      systems security while IRM users were connected to the Internet. The study re-
      vealed some security and administrative weaknesses currently being addressed by DS
      and IRM.

          Upon successful completion of the pilot, IRM established the OpenNet Plus
      Project Management Office (PMO) to develop, execute, manage, and monitor the
      program from the initial planning phase begun in May 2001 through the installation
      phase, expected to be completed in May 2003. A major PMO responsibility is
      coordinating with Department bureaus and overseas missions on a regular basis to
      help them prepare for connection to the Internet. The Department authorized $6.2
      million for OpenNet Plus rollout in May 2001 and, through its Information Technol-
      ogy investment decisionmaking process for FY 2002, expects to allocate $109 million
      to support deployment. The PMO provides monthly updates to the Under Secretary
      for Management and the Chief Information Officer (CIO), the program sponsor, on
      OpenNet Plus funding issues and progress toward meeting established milestones
      and objectives.

          According to foreign affairs regulations,1 the Managing State Projects methodol-
      ogy must be used for managing the development of all IT projects that exceed one
      year and cost over $500,000. In compliance with these regulations, the PMO used
      the methodology to help develop a draft of the OpenNet Plus Project Plan in
      October 2001. The plan outlines the resources and timelines needed for OpenNet
      Plus deployment domestically and overseas. Based on the Managing State Projects
      concept, the program will include five major phases—study, acquisition, integration,
      deployment, and installation.

      1
          Foreign Affairs Manual, chapter 5, section 621




4 .                OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002

                                       UNCLASSIFIED
                                       UNCLASSIFIED



    The PMO’s initial strategy for OpenNet Plus deployment included development
of a Connection Approval Process workbook, which outlines the procedures that a
bureau, embassy, or consulate must follow to obtain approval for Internet access
through the program. The entire connection approval process consists of multiple
steps to ensure that each Department organization meets information security
requirements. These steps also aid in the development of a technical strategy for
making the connection to OpenNet Plus. The initial steps that must be completed
include:

      •    Designating and training Information Systems Security Officers to manage
           the organization’s IT security program;

      •    Complying with systems security configuration guidelines;

      •    Initiating development of IT contingency plans;

      •    Controlling and standardizing systems configuration and change manage-
           ment procedures;

      •    Verifying compliance with hardware and software baseline configurations to
           support a common operating environment; and

      •    Ensuring that end users complete the required security training.

     After a bureau or overseas mission has completed these initial steps in the
Connection Approval Process workbook, DS performs an independent verification
and validation of the site’s systems and physical and technical environments. The
independent verification and validation, conducted in accordance with foreign affairs
guidance,2 provides assurance that basic security controls are in place prior to con-
nection to OpenNet Plus. DS can perform independent verification and validation
either remotely, using technical tools and methodologies, or on-site at the individual
Department organization. Because of time constraints, DS may in some instances
use remote tools to initiate the independent verification and validation process. DS
will coordinate with regional security officers on the physical and administrative
aspects of the process for those posts that undergo remote independent verification
and validation. DS will be unable to perform independent verification and validation
on-site at all embassies and consulates, but hopes to visit at least 60 percent of all
overseas locations to do the tests.



2
    Foreign Affairs Manual, chapter 12, section 600



OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002   5 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



           As a result of independent verification and validation, DS can determine
      whether a bureau, embassy, or consulate is in compliance with all connection ap-
      proval process requirements. If fully compliant, DS recommends that the CIO—the
      Designated Approving Authority—grant “interim authority to operate,” or tempo-
      rary approval for connection to OpenNet Plus. If not compliant with the connec-
      tion approval process requirements, the bureau or overseas mission must first meet
      all requirements before the interim authority to operate is granted. In addition to
      meeting all connection approval process requirements, Internet connection is contin-
      gent upon an organization’s having adequate bandwidth—the telecommunications
      capacity required to support data transfer. The Diplomatic Telecommunications
      Service Program Office is the Department’s preferred bandwidth supplier for over-
      seas sites. If the Diplomatic Telecommunications Service Program Office cannot
      supply the technically required bandwidth within the established time frame, the
      OpenNet Plus Program Office will obtain bandwidth via satellite or local Internet
      service providers. In June 2001, IRM developed a capacity plan outlining the
      Department’s bandwidth requirements worldwide.

          The final step in the connection approval process is a series of internal processes
      that IRM must complete before activating OpenNet Plus at a given location. These
      processes include reviewing independent verification and validation reports, validat-
      ing bandwidth availability, and issuing compliance agreements for management
      signature. As of the end of November 2001, the Bureau of Economic and Business
      Affairs, part of IRM, the Warrenton Training Center,3 and Embassy Nicosia had
      been connected to OpenNet Plus. In addition, parts of Embassy New Delhi,
      Embassy Mexico City, and domestic organizations included in the Department’s
      Foreign Affairs Systems Integration pilot program have also received access to
      OpenNet Plus, which is needed to support web-based data sharing and exchange
      among foreign affairs agencies.

          After connection to OpenNet Plus, a bureau or overseas mission must prepare
      for certification and accreditation—a structured process for ensuring IT security risk
      management in compliance with Department and federal directives. Specifically,
      “certification” is the independent, comprehensive evaluation of the technical and
      non-technical security features of an information system. “Accreditation” is the
      subsequent formal acceptance of the risks identified through certification and
      approval to operate the system, ensuring that the accredited security posture will be
      maintained throughout the system life cycle. The minimum standards, activities, and


      3
        This training center, located in Warrenton, Virginia, is part of the Foreign Service Institute’s
      School of Applied Information Technology.



6 .              OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002

                                     UNCLASSIFIED
                                       UNCLASSIFIED



management structure for certification and accreditation are prescribed in the Na-
tional Information Assurance Certification and Accreditation Process developed by
the National Security Telecommunications and Information Systems Security Com-
mittee. This document also outlines the roles and responsibilities of those involved
in the process. Within the Department, DS serves as the Certification Authority
responsible for determining the level of residual security risk to an IT system and
making an accreditation recommendation to the CIO, who is the Designated Ap-
proving Authority. All bureaus and overseas missions must complete the certifica-
tion and accreditation process to maintain their connection to OpenNet Plus.

    In accordance with requirements of the National Information Assurance Certifi-
cation and Accreditation Process, each Department organization undergoing
OpenNet Plus certification and accreditation must also develop a systems security
authorization agreement. The agreement, initiated at the beginning of an IT project,
is used to guide certification and accreditation activities and document agreement
among the certifier, approving authority, user representative, and program manager
to support the risk management process. The agreement is a compilation of various
documents, including a description of the IT operating environment, a systems
security architecture, test plans and procedures, and certification results, that form
the baseline security configuration document. In the case of OpenNet Plus, each
organization must complete specific portions of the systems security authorization
agreement no later than nine months from the date that the interim authority to
operate is granted.



ADDITIONAL POLICIES NEEDED TO SUPPORT OPENNET PLUS
IMPLEMENTATION
The Department has not yet instituted all of the policy guidance needed to govern
OpenNet Plus implementation. The OpenNet Plus PMO has taken a step in this
direction by identifying nine areas in which policies are needed to define and manage
effectively the OpenNet Plus global infrastructure. These areas include asset man-
agement, systems architecture and configuration standards, network monitoring, and
security.

    Currently, some guidance exists in a few of the areas identified. Specifically, the
Department’s foreign affairs manuals include fairly comprehensive guidance regard-
ing software development, project management, and configuration management.
However, the guidance is limited with regard to roles and responsibilities and internal
controls for managing agency-wide IT programs such as OpenNet Plus. The PMO


OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002   7 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



      has begun to map the existing guidance to a “Leading Policy Practice Framework,”
      which provides a strategy for enhancing the guidance or developing new policies to
      support the OpenNet Plus program. For areas where no guidance currently exists,
      the framework identifies target policies and establishes priorities for their immediate
      or long-term development. According to the draft OpenNet Plus project plan, the
      PMO will develop the required policies over the next 18 months.

          OIG believes that continued progress in policy development is critical, especially
      in two key areas. The first area involves having Department organizations eliminate
      existing Internet connections after OpenNet Plus has been deployed. Currently, the
      acquisition of Internet access is decentralized, allowing organizations to select from a
      variety of methods to obtain such services. Domestically, bureaus have web access
      through IRM’s Rich Internet Access, Internet Local Area Networks, stand-alone dial-
      up connections, and the Public Diplomacy Network. With the exception of IRM’s
      Rich Internet Access, overseas embassies and consulates also use these same means
      to access the Internet. In many cases, Internet access requires that an employee have
      an additional workstation on the desktop or use shared terminals. OpenNet Plus
      deployment, as previously discussed, is intended to standardize how the Department
      acquires Internet service and eliminate the need for separate networks and
      workstations.

          In the absence of a central policy several bureaus and overseas missions have
      indicated that they expect to keep their separate Internet connections after OpenNet
      Plus is implemented, resulting in redundant capabilities. Their reasons for keeping
      the existing connections include having back-up Internet service in case OpenNet
      Plus becomes unavailable or ensuring additional capabilities (i.e., remote log-in and
      audio- and video-streaming) that currently are not offered through the OpenNet Plus
      program.

          Based on our preliminary analysis of selected Department data on Internet
      service costs, overseas missions are spending almost one million dollars per year to
      maintain their separate Internet connections. To eliminate the duplicative Internet
      service costs, the Department needs to institute a policy requiring that bureaus,
      offices, embassies, and consulates discontinue or shut down their independent
      Internet connections after OpenNet Plus is implemented, unless a business case is
      provided to justify continued use. The Director of the OpenNet Plus PMO recently
      stated that a policy is being drafted and will be presented to the Department’s IT
      Change Control Board for review. This board, created in October 2001 and chaired
      by IRM, manages changes to the Department’s global environment.




8 .            OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002

                                   UNCLASSIFIED
                                       UNCLASSIFIED




     Recommendation 1: We recommend that the Bureau of Information Re-
     source Management develop and implement a policy that directs bureaus, of-
     fices, embassies, and consulates to terminate existing Internet services once
     OpenNet Plus is deployed. The policy should include how long legacy Internet
     connections may remain in service during the transition to OpenNet Plus. The
     policy should also outline how a bureau, office, embassy, or consulate can peti-
     tion to keep its existing Internet connections by making a detailed business
     case.


    A second area of OIG concern is the sensitive issue of monitoring employee use
of the Internet within the Department. As with any other organization providing
Internet service at the desktop, such access can result in employee misuse and/or
abuse. Employees can spend large periods of government time using the Internet
for personal reasons and/or accessing inappropriate sites. Various publications
identified a number of instances where employees in some industries and govern-
ment agencies accessed the Internet at work for pleasure or to conduct personal
business. This can lead to workplace inefficiencies, wasted taxpayers’ dollars, hostile
work environments, and lawsuits. Even with the limited Internet access currently
available, the Department has already experienced some abuse by its employees. For
example, a Foreign Service officer assigned overseas was suspended for ten days for
using a government computer to access a pornographic web site.

     The Department has taken some steps that begin to address this issue. Specifi-
cally, in March 2000, the Under Secretary for Management instituted a policy that
allows employees limited use of government equipment for personal reasons.4
Included in this policy is use of the Internet, as long as it does not result in increased
cost to the Department. Employees are allowed to use the Internet in moderation
on personal time for matters that are not directly related to official business. The
policy also states, however, that employees can have no expectation of privacy while
using any government-provided Internet service. Employees are also to conduct
themselves professionally in the workplace and to refrain from using Department
resources for activities that may be offensive to coworkers or the public. These
policies are outlined in several foreign affairs regulations, some of which are awaiting
final clearance.5


4
    Department Notice 2000-03-35, “Personal Use of Government Equipment,” March 17, 2000.
5
 Foreign Affairs Manual chapter 5, section 700 (awaiting clearance) and chapter 12, section 600,
chapter 5 section 516.3-3.




OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002       9 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



           Further, the Department is working to prevent employee access to inappropriate
       Internet web sites. Specifically, the Department has installed an off-the-shelf soft-
       ware program that blocks access to certain sites. The software serves as a firewall,
       blocking user access to prohibited sites that contain nudity, sexually explicit material,
       profanity, gambling, or racist and sexist propaganda. In addition, the software gives
       the Department’s Network Control Center the capability to block sites not contained
       in the software database. The database is updated daily to reflect any new sites or
       changes to existing ones. Because of incompatibility with another firewall, the
       content blocking software was off-line from October to late November 2001. Dur-
       ing this period, the Department utilized manual means to regulate access to the
       Internet. IRM ultimately modified the firewall configuration to restore the software
       to service.

           Instituting employee equipment use policies and the content blocking software
       are steps in the right direction. However, more is needed. Specifically the Depart-
       ment has no guidelines in place to address how or whether it will monitor employee
       compliance with existing use policies as they relate to the Internet. Before instituting
       such Internet monitoring, the Department will first have to determine the extent to
       which it is necessary and who will be responsible for conducting it. Further, the
       Department will also need a strategy to enforce compliance or address violations.
       Implementing the policies as OpenNet Plus is deployed should help eliminate
       problems before they arise. Such policies would also provide a general understand-
       ing of how IRM or supervisors will monitor Internet use and what repercussions
       employees will face if they abuse their Internet privileges.


          Recommendation 2: We recommend that the Bureau of Information Re-
          source Management, in collaboration with the Bureaus of Diplomatic Security
          and Human Resources, develop and implement specific policies that address
          how the Department will monitor Internet use by employees and the extent to
          which such monitoring will be done.




       INFORMATION SECURITY ISSUES
       Although OpenNet Plus will provide employees with ready access to a range of web
       information and resources, it will also pose potential IT security risks for the
       Department’s data processing operations. As discussed above, desktop access to the
       Internet will be provided via the Department’s OpenNet infrastructure, a sensitive
       but unclassified network that connects embassies, consulates, and domestic facilities


10 .             OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002

                                     UNCLASSIFIED
                                       UNCLASSIFIED



to support global communications and services. This network contains proprietary
and critical mission and business data—financial, personnel, foreign affairs, and visa
information—that must be protected against loss, destruction, or compromise. Due
to the sensitive nature of these issues, the details on our information security find-
ings and recommendations will be included in a separate product.



DEPARTMENT COMMENTS AND OUR EVALUATION
We obtained written comments on a draft of this report from the Bureaus of Infor-
mation Resource Management, Human Resources, and Diplomatic Security. We
have included copies of the comments in their entirety at Appendix B.

    In its response, IRM concurred with Recommendation 1 regarding terminating
existing Internet connections once OpenNet Plus is deployed. IRM stated that the
bureau has already drafted a policy in this regard, very similar to the suggestion
outlined in our report. The next step will be to have the policy approved by the IT
Change Control Board, chaired by IRM and comprised of executive representatives
of organizations across the Department with responsibility for managing changes to
the Department’s global IT environment.

      IRM agreed that Recommendation 2 concerning monitoring Internet usage
addresses significant issues for the Department. However, IRM did not believe that
it is in a lead position to develop and implement policies on such issues. IRM stated
that it has taken responsibility on the prevention side by using technology to prevent
employee access to Internet sites for illegitimate purposes. IRM also stated that the
Department has existing policies to govern abuse of equipment such as telephones
and that potential Internet abuse does not require a separate policy. Similarly, Hu-
man Resources also believed that Recommendation 2, directed to that bureau, is
inappropriate. The bureau stated that the Department’s Discipline Program, in-
cluded in existing foreign affairs guidance, already outlines roles and responsibilities,
enforcement procedures, and penalties for employees who abuse and/or misuse the
Internet.

    OIG agrees in part with the comments provided by IRM and Human Resources
with regard to Recommendation 2 and has revised the recommendation, eliminating
the requirement for additional personnel policies on Internet use. However, OIG
believes that the Department still needs to assign responsibilities and develop guide-
lines for monitoring employee compliance with existing policies as they relate to
Internet use. OIG also believes that the Discipline Program that Human Resources



OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002   11 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       cited does not address how the Internet monitoring will be done. In addition, if the
       Department determines that line managers need to monitor employee use of the
       Internet, we agree with IRM’s suggestion that training be provided in this regard.

           In its comments, DS did not respond to Recommendation 2, which we directed
       to the bureau for action. DS only provided clarification on information security
       processes and requirements, which we have incorporated in the text above.




12 .            OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002

                                    UNCLASSIFIED
                                       UNCLASSIFIED



APPENDIX A                                                                 APPENDIX A




PURPOSE, SCOPE AND METHODOLOGY
To fulfill our review objectives, we obtained background information on the existing
OpenNet infrastructure, resources, and capabilities. We also studied networks
currently in place to support Internet access—Public Diplomacy Network and Rich
Internet Access Network—their capabilities, operations, and effective practices. We
examined a range of IT and security guidance, including federal laws and policies
and Departmental regulations applicable to the implementation and deployment of
IT systems for web access.

    We met with officials from IRM to discuss the Department’s approach to identi-
fying the risks, timelines, and resources needed for OpenNet Plus implementation.
We attended OpenNet Plus weekly briefings to monitor the status of the program.
We interviewed officials from the Office of International Information Programs to
talk about their current network available to provide web access to Public Diplomacy
users worldwide. We also met with officials from DS to discuss the Department’s
plans for assessing IT security and possible solutions for managing the risks to
installing OpenNet Plus at the desktop.

    In conducting this review, we focused on assessing the results of the 90-day
OpenNet Plus Pilot, which started in January 2001, and evaluating the Department’s
plans for initial deployment of OpenNet Plus. We did not visit embassies or consu-
lates to assess local capabilities, security risks, or current web access network configu-
rations.

    We conducted our review from May to November 2001 at the Department in
Washington, DC. We performed our work in accordance with generally accepted
government auditing standards. Major contributors to this report were Frank Deffer,
Sondra McCauley, John Shiffer, and Maria Cunningham. Comments or questions
about the report can be directed to Mr. Deffer, IT Evaluations and Operations, at
defferf@state.gov or (703) 284-2715.




OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002   13 .

                                       UNCLASSIFIED
                           UNCLASSIFIED




14 .   OIG Report No. IT-A-02-03, Challenges to Successful OpenNet Plus Implementation – March 2002

                           UNCLASSIFIED
